No. _________

In the Supreme Court of the United States
TEXAS BRINE COMPANY, LLC &
UNITED BRINE SERVICES COMPANY, LLC,
Petitioners,
v.
RODD NAQUIN, in his capacity as Clerk of Court
for the First Circuit Court of Appeal
for the State of Louisiana,
Respondents.

CERTIFICATE OF COMPLIANCE

I, Paul W. Hughes, counsel for respondents and a member of the Bar of this
Court, certify pursuant to Rule 33.1(h) of the Rules of this Court that this petition for a
writ of certiorari contains 6,496 words, excluding the parts of the brief that are
exempted by Rule 33.1(d).

Paul W. Hughes

